<html>
<title> - ASSESSING THE BIOLOGICAL WEAPONS THREAT: RUSSIA AND BEYOND</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]





       ASSESSING THE BIOLOGICAL WEAPONS THREAT: RUSSIA AND BEYOND

=======================================================================

                                HEARING

                               BEFORE THE

         SUBCOMMITTEE ON EUROPE, EURASIA, AND EMERGING THREATS

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 7, 2014

                               __________

                           Serial No. 113-142

                               __________

        Printed for the use of the Committee on Foreign Affairs





[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 ______

                         U.S. GOVERNMENT PRINTING OFFICE 

87-836PDF                     WASHINGTON : 2014 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001















                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
JOE WILSON, South Carolina           GREGORY W. MEEKS, New York
MICHAEL T. McCAUL, Texas             ALBIO SIRES, New Jersey
TED POE, Texas                       GERALD E. CONNOLLY, Virginia
MATT SALMON, Arizona                 THEODORE E. DEUTCH, Florida
TOM MARINO, Pennsylvania             BRIAN HIGGINS, New York
JEFF DUNCAN, South Carolina          KAREN BASS, California
ADAM KINZINGER, Illinois             WILLIAM KEATING, Massachusetts
MO BROOKS, Alabama                   DAVID CICILLINE, Rhode Island
TOM COTTON, Arkansas                 ALAN GRAYSON, Florida
PAUL COOK, California                JUAN VARGAS, California
GEORGE HOLDING, North Carolina       BRADLEY S. SCHNEIDER, Illinois
RANDY K. WEBER SR., Texas            JOSEPH P. KENNEDY III, Massachusetts
SCOTT PERRY, Pennsylvania            AMI BERA, California
STEVE STOCKMAN, Texas                ALAN S. LOWENTHAL, California
RON DeSANTIS, Florida                GRACE MENG, New York
DOUG COLLINS, Georgia                LOIS FRANKEL, Florida
MARK MEADOWS, North Carolina         TULSI GABBARD, Hawaii
TED S. YOHO, Florida                 JOAQUIN CASTRO, Texas
LUKE MESSER, Indiana                

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

         Subcommittee on Europe, Eurasia, and Emerging Threats

                 DANA ROHRABACHER, California, Chairman
TED POE, Texas                       WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             GREGORY W. MEEKS, New York
JEFF DUNCAN, South Carolina          ALBIO SIRES, New Jersey
PAUL COOK, California                BRIAN HIGGINS, New York
GEORGE HOLDING, North Carolina       ALAN S. LOWENTHAL, California
STEVE STOCKMAN, Texas















                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Amy Smithson, Ph.D., senior fellow, James Martin Center for 
  Nonprolferation Studies........................................     5
David R. Franz, Ph.D. (former Commander, U.S. Army Medical 
  Research Institute of Infectious Diseases).....................    17
Christopher Davis, M.D. (former member, Defense Intelligence 
  Staff of the United Kingdom)...................................    26
Mr. Milton Leitenberg, senior research scholar, Center for 
  International and Security Studies at Maryland, School of 
  Public Policy, University of Maryland..........................    36

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Amy Smithson, Ph.D.: Prepared statement..........................     8
David R. Franz, Ph.D.: Prepared statement........................    19
Christopher Davis, M.D.: Prepared statement......................    31
Mr. Milton Leitenberg: Prepared statement........................    40

                                APPENDIX

Hearing notice...................................................    54
Hearing minutes..................................................    55
Mr. Milton Leitenberg: Material submitted for the record.........    56
The Honorable George Holding, a Representative in Congress from 
  the State of North Carolina: Questions submitted for the record 
  and written responses from:
  Amy Smithson, Ph.D.............................................    61
  Mr. Milton Leitenberg..........................................    64

 
       ASSESSING THE BIOLOGICAL WEAPONS THREAT: RUSSIA AND BEYOND

                              ----------                              


                         WEDNESDAY, MAY 7, 2014

                       House of Representatives,

         Subcommittee on Europe, Eurasia, and Emerging Threats,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 2:07 p.m., in 
room 2200, Rayburn House Office Building, Hon. Dana Rohrabacher 
(chairman of the subcommittee) presiding.
    Mr. Rohrabacher. I call this subcommittee hearing to order. 
The subject today is, ``Assessing the Biological Weapons 
Threat: Russia and Beyond.'' The purpose of today's hearing is 
review the progress of the United States and our partners in 
Eurasia have made to dismantle and secure the remnants of the 
Soviet Union's biological weapons program. We will be 
discussing what the United States and our partners in Russia, 
Central Asia and the caucuses have accomplished, what, if any, 
lessons have we learned, and what we can or should not be 
done--or what can and what should be done to strengthen the 
Biological Weapons Convention.
    During the Cold War, the Soviet Union developed an 
offensive biological weapons program. It was supported by a 
large network of facilities which employed an estimated 60,000 
workers at its height. Soviet scientists were able to engineer 
pathogens so deadly that they could be deployed with the same 
killing power as a nuclear bomb. Biological weapons created in 
labs are inherently different from natural diseases. Weaponized 
germs are purposely made to be more deadly, act differently, 
and resistant to medicine. They can also be delivered in 
extremely high doses or in combinations to create certain 
results.
    It is alarming to hear that the Soviets continue to develop 
these weapons into the early 1990s in violation of the 1972 
Biological and Toxin Weapons Convention, or the, as it is known 
as, the BWC. That treaty, still in force today, bans the 
development, production, and stockpiling of biological weapons. 
The United States Government, by comparison, unilaterally and 
completely ended its weapons program, beginning in 1969, so we 
rapidly ended our biological weapons program as the Soviet 
Union accelerated theirs.
    After the disintegration of the Soviet Union, the United 
States worked to secure these deadly pathogens, dismantle the 
facilities, and prevent scientists from selling their knowledge 
on the black market. Congress created the Cooperative Threat 
Reduction Program, sometimes informally referred to as Nunn-
Lugar, and this was to secure the WMD materials in Russia and 
the newly independent States formerly ruled by Moscow.
    To date, our Government has spent over $2 billion to secure 
biological weapons facilities and related materials in the 
former Soviet Union. I am pleased by the apparent success of 
these initiatives and at least the preceded success in many 
cases. The cooperation between our Government and many other 
countries in Central Asia and the caucuses has led to a safer 
world, we hope, and that is what we will be talking about 
today, we believe.
    An important part of the BWC is that every 5 years there is 
a review conference, and it is convened to find ways to improve 
the convention and to share the data. The next review 
conference is set to take place in 2016. I look forward to 
hearing from the witnesses and to hear about their conclusions 
that they have had about how successful our efforts have been 
to secure former Soviet biological weapons sites, and based on 
that experience, what new lessons we can apply to verification 
or inspections of suspected biological weapons programs in 
other situations.
    There are steps we should take to improve and strengthen 
the BWC, are there such steps that we can take? And that is 
what we need to hear today as well, and have we used the 
lessons from implementing Nunn-Lugar to improve our own 
defense, at least our own defenses in case of a future 
biological attack.
    Without objection, all members have 5 legislative days to 
submit additional written questions or extraneous materials for 
the record.
    And with that, I turn to our ranking member, Congressman 
Keating, for his opening statement.
    Mr. Keating. Well, thank you, Mr. Chairman.
    I am pleased to welcome Dr. Smithson, Dr. Franz, Dr. Davis, 
and Mr. Leitenberg. I am certain we are going to benefit from 
all your experience. I am pleased, in particular, that Mr. 
Leitenberg is with us today. Mr. Leitenberg's 2012 book, which 
was coauthored with Raymond Zilinskas is widely viewed as the 
seminal history of the Soviet Union's biological weapons 
program, including the covert program launched in 1970s, well 
after the Soviet Union signed onto the Biological Weapons and 
Toxins Convention.
    Since the mid-1990s, the United States has invested 
billions of dollars through Cooperative Threat Reduction 
Program in dismantling and decontaminating biological weapons 
testing and productions sites in the former Soviet Union. U.S. 
programs have also focused on securing pathogens and employing 
former weapons scientists in civilian work.
    This has not been an easy task, given the scope of the 
Soviet biological weapons program, which at one point employed 
an estimated 60,000 people at more than 50 sites throughout the 
Soviet Union.
    Although cooperation with former Soviet republics in 
Central Asia has been generally successful, resulting in the 
decontamination of biological weapons facilities and 
containment of dangerous pathogens, the same cannot be said for 
our cooperation with Russia. In 1992, Russian President Boris 
Yeltsin acknowledged the existence of a covert Soviet program. 
He publicly committed Russia to establishing compliance with 
the biological weapons and toxins convention by prohibiting 
offensive biological weapons work, initiating the dismantlement 
of the program inherited from the Soviet Union, and agreeing to 
allow on-site verification procedures of this dismantlement.
    Despite these commitments, Russia refused to allow 
international inspection in key biological weapons facilities, 
a policy continued under President Putin. As a result, there 
has been considerable uncertainty about the dismantlement 
status of Russia's inherited biological weapons capabilities 
and reason to believe that Russian scientists may still be 
engaging in research and development activities. The recent 
deterioration in U.S. relations with Russia complicates matters 
even further, as do President Putin's recent statements 
suggesting a willingness to use biological weapons to ``respond 
to new challenges.''
    As such, there is much we do not know about Russia's 
current programs or their intentions. Indeed, what is most 
striking about the threat posed by biological weapons is how 
much we don't know. I hope this hearing will help the 
subcommittee to better understand the scope of the threat as 
well as the appropriateness and effectiveness of U.S. measures 
to counteract the threat.
    In particular, I look forward to learning how other 
countries perceive U.S. policy and our commitment to 
eliminating biological weapons. Successive administrations, 
Republican and Democrat, have advocated against adding a 
verification mechanism to the BWC. In 2001, former Under 
Secretary of State for International Security John Bolton, an 
official in the George W. Bush administration, argued that 
traditional arms control measures would not work for biological 
weapons. Obama administration officials have made similar 
claims. I look forward to hearing our panelists' views on 
whether it is possible to strengthen the BWC, and if so, how 
useful new protocols would be in countering the threat posed by 
biological weapons.
    I hope our witnesses will also assess the risk that Soviet 
biological weapons, materials, or know-how have fallen into the 
hands of rogue states or nonstate actors and whether any state 
or nonstate actors currently have the capability sufficient to 
use biological weapons to create a mass casualty event.
    Finally, despite considerable debate over the extent of the 
threat posed by biological weapons, the United States has spent 
over $64 billion on biodefense programs since the anthrax scare 
of 2001. I hope our witnesses will be able to comment on 
whether this massive expenditure is proportionate to the threat 
and welcome their thoughts on the effectiveness of our 
biodefense programs.
    Thank you, Mr. Chairman. I yield back.
    Mr. Rohrabacher. Thank you, and do either of our other 
colleagues have--Judge Poe. You have an opening statement.
    Mr. Poe. Thank you, Chairman.
    I thank the witnesses for being here. As you know, Mr. 
Chairman, we are in judiciary in a markup dealing with revising 
the PATRIOT Act, so I will have to excuse myself and go back to 
that.
    The problem we face today is, how do we protect Americans 
from the threat of biological weapons when we are dealing with 
a country, primarily the leader of this country, who cannot be 
trusted to tell the truth about anything? Now, the United 
States, United Kingdom eliminated their biological weapons 
programs over 40 years ago, before the Biological Weapons 
Convention even existed. The Soviet Union promised, they 
promised to stop their biological weapons program, but of 
course, they didn't. Their biological weapons program remained 
active until the Soviet Union fell in the early 1990s.
    Today, Russia is led by Colonel Putin, KGB, who would like 
nothing more, in my opinion, than to go back to the glory days 
of the old Soviet Union. Putin, or the Napoleon of Siberia, as 
I like to call him, has taken over part of a sovereign country, 
at least two of them now, Georgia and part of Ukraine. I have 
been to both.
    He is using his military and political operatives in these 
countries to create unrest, and then he says he has to go in 
and control the area to stop the unrest he started. He did that 
in both Georgia and Eastern Ukraine, and I do not believe he is 
through with his aggression. Who's next? Moldova? We will see.
    So that is who we are dealing with, Mr. Putin, and he and 
Russia have signed onto the Biological and Toxin Weapons 
Convention, the BWC, but we do not know if Russia has followed 
it because there is no true verification measures in place. 
Some believe that it has been reported by some that the 
Russians in fact helped facilitate chemical weapons going to 
Syria. I don't know if that is true or not, but that has been 
out there.
    In 2009, this administration stopped even negotiating about 
trying to verify a country was following the BWC; instead, the 
State Department believes that transparency and diplomacy are 
enough. After Russia's invasion of Ukraine, I wonder if we 
still follow that philosophy. Apparently, we do. It appears to 
me, it is the height of ignorance to trust Putin and his 
government to keep its word on anything; therefore, 
verification must be an absolute.
    Putin is not our ally; he is not a friend. He is not a 
friend of the world. And I certainly don't think we can let him 
get away with breaking his word, so we must act accordingly.
    And thank you, Mr. Chairman. I yield back.
    Mr. Rohrabacher. That is just the way it is.
    Mr. Poe. That is just the way it is, Mr. Chairman, to quote 
a phrase.
    Mr. Rohrabacher. And Mr. Sires.
    Mr. Sires. I will be very brief.
    Chairman, thank you for holding this hearing and thank you 
for being here today. I have a big concern about the region 
that used to be part of the Soviet Union, because a lot of 
these weapons were made in some of these countries, and I am 
concerned that, are they secure, because they have had a number 
of militant Islamic groups in this regions? And I am concerned 
that not--the whole world is in danger from these groups, so I 
just want to hear what you have to say and maybe get a idea how 
secure some of these places are where they made some of these 
weapons. Thank you.
    Mr. Rohrabacher. Oh, thank you.
    To testify before us today, we have four distinguished 
experts on this topic. Each of your full statements will be 
made part of the record. If you could keep your statements, the 
verbal part of it, down to about 5 minutes apiece, that would 
be a big help, but your actual--the whole statement that you 
have will be part of the record.
    Dr. Amy Smithson is a senior fellow at James Martin Center 
for Nonproliferation Studies and an expert on biological 
weapons. In the past, she has worked for the Center on 
Strategic and International Studies and the Henry Stimson 
Center. At the Stimson Center, she founded their Chemical and 
Biological Weapons Nonproliferation Project, and she has also 
worked to help--worked to and helped former weapons scientists 
engage with civilian companies, thus finding them a peaceful 
way to use their talents and skills.
    We also have with us Dr. David Franz, a retired colonel and 
a 27-year veteran of the United States Army. He served 23 of 
those years in the Army Medical Research and Materiel Command 
and came to command the Army's Medical Research Institute of 
Infectious Diseases. During the 1990s, he served as a member of 
a joint British team which inspected former Soviet bioweapons 
sites. He also later served as the chief inspector for three 
United Nations inspections missions to Iraq, focusing on that 
country's bioweapons program.
    Mr. Davis served in the Royal Navy and spent--Mr. Davis, 
our next witness--spent--served in the Royal Navy and spent 10 
years in British Intelligence as its principal biological 
warfare analyst. He debriefed high level Soviet defectors 
regarding their biowarfare program, and after 1991, he went on 
the ground to inspect Soviet weapons sites. He has had a very 
distinguished academic and private sector career with numerous 
honors, including the Order of the British Empire, bestowed by 
Queen Elizabeth, II. Mr. Davis is also a fellow in the 
pharmaceutical medicine and holds doctorate degree in 
philosophy from the University of Oxford.
    Mr. Milton Leitenberg is a senior research scholar at the 
University of Maryland Center for International and Security 
Studies. He has almost four decades of experience working in 
the arms control and issues affiliated with that, and he has 
been with the Stockholm International Peace Research Institute 
and published and edited over 150 scholarly works, including a 
book recently published by Harvard University on the history of 
Soviet biological weapons and the weapons program.
    So I would ask all of you again to keep your statements 
down to about 5 minutes verbally, but you can put whatever else 
you want right in the record, and we will start with Dr. 
Smithson.

 STATEMENT OF AMY SMITHSON, PH.D., SENIOR FELLOW, JAMES MARTIN 
               CENTER FOR NONPROLFERATION STUDIES

    Ms. Smithson. Good afternoon. Since many of the other 
panelists will focus on issues of Russia and Central Asia, 
although I address those in my written statement and have been 
to many of those facilities, I will concentrate instead in my 
oral remarks on how to strengthen the BWC. And in doing so, 
what you are going to get is not just the benefit of my 
thoughts but literally an array of the top experts around the 
world and from the United States biopharmaceutical industry as 
well as from the United Nations Special Commission, which was 
established in 1991 after the first Gulf War to strip Iraq of 
its weapons of mass destruction.
    With regard to the former group of scientists, the ones 
from the U.S. industry, I convened them on a number of 
occasions to ponder whether or not the BWC could indeed be 
monitored because conventional wisdom says that is not 
possible. And much to my surprise, quite frankly, they crafted 
a detailed monitoring protocol for the BWC that relies on many 
of the standard tools that the inspectors of UNSCOM later used 
when they went into Iraq.
    Now, I don't have time to go into the details of this 
proposal. I would like to, in question and answer, but what I 
would like to leave you thinking about that proposal is that it 
is much more stringent than the draft protocol that the United 
States Government rightly rejected in 2001. So they are asking 
for tougher monitoring provisions.
    It is also quite contrary to the position of the industry's 
main trade association, PhRMA, which tends to say that just 
having inspectors on site could compromise its trade secrets. 
In contrast, they believe that their monitoring protocol could 
be implemented without doing that. In fact, they think it would 
be very, very effective, and their monitoring protocol is 
equally or less demanding than the inspections that the 
industry currently undergoes from the Food and Drug 
Administration. In all except for two cases, one would be the 
size of the inspection team, which would come with a pack of 
U.S. escorts that might be difficult for some companies to 
handle, and the other is the length of time that they would 
stay on site.
    Now, after this work was completed, and I started to 
interview the UNSCOM inspectors about their experience in Iraq, 
what struck me is the similarity between what the industry 
experts were proposing and what UNSCOM actually did in Iraq and 
how successfully that worked out, even though, before they ever 
landed in Iraq, quite frankly, the deck was stacked against the 
UNSCOM inspectors.
    First of all, Iraq had already begun to implement a 
strategy to hide not just its nuclear program but its 
biological weapons program from the inspectors. Next, the 
intelligence that they had to work from was, quite frankly, 
incomplete and sometimes inaccurate. For example, U.S. 
intelligence had not even managed to identify Al Hakam, which 
was Iraq's main biological weapons production facility. From 
the air, it looked very much, in fact almost identical to 
Iraq's chemical weapons production facility, Al Muthanna. That 
is just one of the things that intelligence didn't manage to 
pick up on.
    And it is not surprising to me, having worked in this area, 
that the 2005 report of a blue ribbon panel on U.S. 
intelligence capabilities to detect weapons of mass destruction 
programs stated that the U.S. intelligence community 
``substantially underestimated the scale and maturity of 
Iraq's'' biological weapons program leading into the first Gulf 
War, and with regard to its estimate going into the 2003 Gulf 
War, it was ``simply wrong.''
    Nonetheless, during the first two inspections that UNSCOM 
conducted in the summer of 1991, they managed to pick up 
significant evidence that there was a biological weapons 
program. Happy to answer questions about that. Moreover, they 
identified two commercial facilities, supposed commercial 
facilities that were actually part of that program. So they 
believe that it is possible to distinguish between the two 
types of facilities; not in every case, but in some cases.
    Now, in 1994, when they resumed inspections, there were 
only three unspecific intelligence tips that they had to help 
them in their job. Nonetheless, they did manage to unmask the 
program using a lot of just plain old smarts and old-fashioned 
gum shoe detective work. For example, they collected hundreds 
of documents from suppliers to Iraq's program that allowed them 
to reverse engineer it. They sampled a sprayer from the 
production line at Al Hakam that the Iraqis said was making a 
biopesticide using Bacillus thuringiensis. This is also a 
simulant for anthrax, and when they took this sample, what they 
found out is that it would be inoperable for a biopesticide 
because you would need something of 150 microns or larger, and 
instead, the sample particle size was 10 microns or less, ideal 
for a biowarfare agent.
    So, with tactics like this, during routine inspections, not 
no-notice challenge inspections, they painted Iraq into a 
corner. On the 1st of July 1995, Iraq confessed to having 
produced anthrax and botulinum toxin. On the spot, the 
inspectors knew this wasn't the whole truth because the Iraqis 
said they destroyed these agents in 1990.
    Now, this just doesn't make sense. What state makes a super 
secret weapon only to demolish it before going to war? They 
also already had a handle on Iraq's biological delivery 
systems, including the fact that they had purchased a very 
sophisticated, finely machined spinning dispersal device from a 
German company, so when the executive director of UNSCOM 
returned to New York, he briefed the Security Council that, 
yes, Iraq had produced chemical weapons--excuse me--biological 
weapons, and they admitted that, but we know that was not the 
whole truth. We think they weaponized this stuff as well.
    So, contrary to popular thinking, the UNSCOM experience 
really upends conventional wisdom and stands as a direct 
challenge to the U.S. policy that the BWC is ``inherently 
unverifiable.'' So my recommendation in preparation for the 
2016 Review Conference is that Congress require the executive 
branch to do its homework, to study the experience of UNSCOM, 
to take counsel from scientists inside the pharmaceutical 
industry, and to prepare a report, a multifaceted report that 
examines the capabilities and limitations, not just of 
inspections but of intelligence because we are going to need 
both if they are going to be able to detect and deter 
biological weapons programs in the future and at present.
    I thank you for the opportunity to appear before the 
committee, and I look forward to questions that you might have.
    Mr. Rohrabacher. Thank you very much.
    [The prepared statement of Ms. Smithson follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                              ----------                              

    Mr. Rohrabacher. Dr. Franz.

STATEMENT OF DAVID R. FRANZ, PH.D. (FORMER COMMANDER, U.S. ARMY 
       MEDICAL RESEARCH INSTITUTE OF INFECTIOUS DISEASES)

    Mr. Franz. Chairman Rohrabacher, Ranking Member Keating, 
and distinguished members, it is an honor to be here today. I 
think I am going----
    Mr. Poe. You still live? I didn't pull the plug on you.
    Mr. Keating. Another undetected weapon.
    Mr. Franz. I think you are going to see that I am going to 
talk about another piece of this elephant that you are trying 
to describe, and you will also see that individuals can be 
friends for a long time and not necessarily agree.
    First, I will state four personal biases related to your 
questions that you provided to us. The Biological Weapons 
Convention is an important international norm and law. As a 
Nation, I think it is absolutely critical that we demonstrate 
globally and consistently our full support for the BWC.
    Secondly, the BWC is necessary but not sufficient for our 
national biosecurity. Verifying that any nation state is in 
compliance, I believe, is not possible.
    Third, reducing the threat requires an integrated effort by 
the whole of government, academe, industry, NGOs, and a healthy 
multinational set of partnerships.
    And fourth, we must recognize that personal relationships 
and professional networks that are developed through our 
cooperative programs contribute directly to our national 
security.
    Now, I would like to go very quickly to pose nine relevant 
propositions with regard to this space.
    One, it is a dangerous biological world out there: 15 
million people die annually of communicable and contagious 
diseases. No one dies from biological warfare or biological 
terrorism, and a few people die from biocrimes. However, I am 
convinced that we did achieve nuclear equivalence in killing 
power in our offensive program before we stopped it in 1969, 
and that was long before the current biotech revolution.
    Two, the threats have changed significantly since the Cold 
War. We have gone from protecting the military on a distant 
battlefield to protecting citizens at home, and threats today 
may come from subnational groups, insiders, biocriminals or 
nation states. The phrase ``of types and in quantities'' in 
Article I of the BWC no longer means ton quantities.Today it 
can mean grams, or in the case of viruses particularly, it can 
be much less than grams
    Three, in biology, proliferation is over. This is not a 
nonproliferation issue any more. Proliferation of knowledge, 
technologies, and capabilities is now global.
    Four, quoting Professor Joshua Lederberg, ``there is no 
technical solution.'' Cutting up an anthrax production 
fermenter, which we did in Stepnogorsk, the size of a Kansas 
farm silo is not a lot different than eliminating an ICBM silo. 
But when the fermenter is scrap and its operator is retired or 
conducting legitimate research, how do we increase the 
likelihood that the next generation of molecular biologists and 
virologists, with much better tools and much more knowledge, 
continue to work for the good of their people, their country, 
and the global community?
    Five, health engagement is national security. Leading with 
public health brings like-minded people and their capabilities 
together in a nonthreatening environment, working toward an 
unambiguously positive or humanitarian outcome. It almost 
guarantees improved understanding and even trust among 
collaborating partners. Trust between technically qualified 
individuals often leads to communication and even sometimes 
trust between governments.
    Six, it is about people and relationships. While our 
understanding of natural health risks and intentional threats 
will never be close to perfect, it could be better. We must be 
alert to the ever-changing biological world around us. Friends 
can and do help us when and where we have them.
    Seven, the right engagement metrics can lower the cost and 
increase our national security. Our tendency is to measure 
outputs rather than outcomes in these cooperative programs. I 
have long advocated for a simple set of metrics that begin with 
wise use of taxpayer dollars and lead to personal relationships 
of trust as the ultimate goal. It is not easy. It is not very 
scalable, I admit that, but critical to our national security.
    Eight, we must be in it for the long haul. I sometimes have 
to explain to my international colleagues the short attention 
span of my Government. Too often we make promises and then move 
on to something we think is more important the next moment or 
forget about friends and promises made. A more consistent and 
stable long-view policy would enhance our national security in 
this area.
    And finally, nine, keeping channels of communication open. 
For years, during the Cold War, our nuclear scientists and 
their Soviet counterparts maintained open lines of 
communication through science academies and organizations like 
Pugwash. The outcome was, to some degree, stabilizing, I 
believe. I believe it is easier to do this in biology. 
Remember, these are long-term tools that I am talking about. 
Our specialty is not putting out fires but weaving fire 
retardant into the fabric.
    Now is a good time, I believe, to see how well we did 10 
years ago--not look at this like an outbreak today--and then 
adjust as needed. The global biological tapestry is not always 
a pretty one, but we need every view of it we can find. And we 
can't do these global things alone. Friends of longstanding in 
science and public health networks can and will help us even 
when we are not there. Thank you.
    [The prepared statement of Mr. Franz follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                              ----------                              

    Mr. Rohrabacher. Dr. Davis.

 STATEMENT OF CHRISTOPHER DAVIS, M.D. (FORMER MEMBER, DEFENSE 
           INTELLIGENCE STAFF OF THE UNITED KINGDOM)

    Dr. Davis. Mr. Chairman, the timer isn't working. It 
appears damaged.
    Mr. Rohrabacher. Your mike isn't working?
    Dr. Davis. The timer isn't working. I fear it was damaged 
in the recent ``attack,'' yes.
    Mr. Chairman, Congressman, good afternoon. First of all, 
after introduction, I would like to make it quite clear that I 
am, in fact, a U.S. citizen, although I do sound slightly 
different, and I am about 407 years too late. I missed the boat 
all those years ago, but I did make it in the end.
    First, please forgive me if I am a little difficult to 
understand today. I suffered a ``biological agent attack'' last 
week in England, concluding my homeland is still upset that I 
left, so my voice is slightly compromised.
    Second, I would like to thank you most sincerely for 
inviting me to attend this hearing. Friends and colleagues 
alike have been genuinely worried about what I might experience 
here. But you know, it never occurred to me to worry. I felt 
happy to come and share with fellow citizens some thoughts 
about an important topic.
    Finally, having read through my short text, it occurred to 
me that I might be cast as anti-Russian or rather too critical 
of my former colleagues in the diplomatic services of the U.K. 
And the U.S. and neither is true. I have worked with many 
Russians who were in the former Soviet program and, indeed, 
some have been guests in my home. And the Russians are very 
jolly people. I have no problem.
    And diplomatic colleagues took positions years ago that 
they believed at the time were correct. I disagreed then, and I 
still do. That doesn't mean to say that they are bad people or 
bad things were done, particularly. It really means that we 
took a different view of the world.
    So I would like just to say a few things. I am going to 
stick pretty much to what I submitted. I come before you today 
as a private citizen. I represent no one but myself. The views 
and opinions expressed by me are entirely my own and do not 
necessarily reflect those of my own consultancy company, my 
employer, or my employer's client in whose offices I work, and 
these organizations and their officials bear nor responsibility 
whatsoever for my oral and written testimony today. That is 
important because I absolve everybody from any responsibility. 
It is me.
    In light of my previous work in or with security and 
intelligence services and organizations on both sides of the 
Atlantic, I also must make it clear, in giving this testimony, 
I will at no time write or say anything that transgresses the 
agreements I made with those organizations many years ago with 
respect to maintaining the confidentiality of their systems and 
the knowledge I gained during their employ.
    I am a scientist and a physician educated at the 
Universities of Oxford and London, as was mentioned, and a 
fellow of the Faculty of Pharmaceutical Medicine. I have had 
38-year career spanning hospital medicine, academic research, 
military medicine, the pharmaceutical and biotechnology 
industry, government service, and commercial and contracting 
companies consulting in the United States, Europe, and 
Australasia. For 35 of those years, I have been involved with 
chemical, biological, and nuclear weapons issues. With the 
singular exception, thank goodness, of actually building 
nuclear weapons or chemical weapons of any kind or biological 
weapons of any kind, I have worked on every aspect of the 
problem of biological weapons, from intelligence through threat 
analysis and weapons effects, through R&D on personal and 
collective protection, medical countermeasures, detection 
systems to national policy, international diplomacy, and 
cooperative threat reduction.
    For 10 years, I served on the Defense Intelligence staff of 
the United Kingdom with special responsibility for global 
biological weapons threats and the medical aspects of chemical 
and biological agents. My particular focus for much of those 10 
years was the biological weapons program of the former Soviet 
Union and Russia, and I was closely involved in a debriefing of 
the very first defector from the Soviet program, Dr. Vladimir 
Pasechnik, a very senior institute director who came to the 
U.K. in October 1989.
    Today I have come to ask you to lift the veil that hides 
the ``elephant in the room'' that was left behind in the 1990s 
when direct efforts to persuade Russia to completely abandon 
their biological weapons appear to have failed.
    There is no doubt that what we have come to know as 
ordinary everyday infectious diseases, to which Dave Franz 
referred, are making a come back and that a major issue for 
societies across the globe is the increasingly rapid emergence 
of multidrug resistant forms of these diseases. I say this up 
front because it is an existential risk to society, and I do 
not want the statements I am about to make taken out of context 
or the question of relative risk to be used as an argument to 
continue to ignore ``the elephant.''
    Additionally, it is important to state the outset, that for 
the greater part of the last 20 years, the context of 
discussions about biological weapons and appropriate medical 
countermeasures has been that of bioterrorism. Finally, prior 
to the exposure of the illegal biological weapons program of 
the former Soviet Union, in the years between 1989 and 1994, 
the situation was obfuscated by ignorance and denial. That was 
the era from 1972 to 1989, for which I coined the term 
``nuclear blindness,'' to describe a condition characterized by 
the inability of almost everyone involved in the world of 
diplomacy, security, intelligence, policy making, or defense, 
on the allied side, to understand that there was any treat to 
our security other than that from the possession of tactical or 
strategic nuclear weapons. Indeed, the mere possession of 
nuclear weapons was seen to be the answer to all threats and to 
the possible or actual use of strategic force against the 
state.
    And so to the nub of the matter. The context or room, if 
you will, in which the pachyderm in question sits has changed. 
The Russia of today is not the Soviet Union of old, but neither 
is it the open democratic state for which we hoped, somewhat 
naively perhaps, back in the 1990s. We have been made patently 
aware by the events in Georgia and now in Ukraine that Mr. 
Putin retains all the values and attitudes that allowed him to 
rise successfully through the ranks of the KGB. Sadly, this 
includes an unenlightened quest for power and control over 
everything and a very typical Russian propensity to never let 
go of something that could prove of use against any perceived 
enemy at some point in the future.
    For those who, like Putin, live in a world where fear is 
the predominant emotion determining their existence, enemies 
are everywhere, and any and all actions are permissible to deal 
with existential or theoretical threats. Add to this the 
noxious combination of patriotism and hurt pride born of a 
bruising exit from the Soviet Communism, and the stage is set. 
The ``elephant,'' ignored for 18 years, demands our attention.
    The ``elephant in the room'' is, of course, the Russian 
biological weapons capability. The problem is not new, but the 
context, Putin's new Russia is. In fact, for most of you, even 
if you never ever knew anything about this topic, the 
assumption will be that this is old hat, a problem that was 
taken care of way back in the early nineties, the 1990s that 
is, and the story goes something like this: The Soviets and 
Russians, admitted possession of a massive biological weapons 
research, development, testing, production, storage, and launch 
capability; but did that actually happen? No, I contend. They 
committed to destroying the system, all weapons and methods of 
dissemination, agents, seed stocks, and productions and 
operational plans; but did that actually happen? No, it didn't.
    Complete openness was achieved, and the new Russian state 
allowed inspections and verification of all suspect sites; but 
did that actually happen? No.
    As far as I am aware, pretty much all discussion between 
the U.S. and the U.K. and Russia ground to a halt in mid-1990s 
because of Russian insistence on pursuing reciprocity, a 
condition that the then Soviet negotiators persuaded the U.S. 
State Department to accept at their very first encounter in 
London in 1990, following the defection of Vladimir Pasechnik 
in 1989. I know because I sat around that table.
    Reciprocity is difficult to achieve when the problem is 
one-sided. We said it at the time. The U.S. and the U.K. had 
and have no biological weapons but, in a gesture of 
reasonableness and openness, agreed to reciprocal visits. This 
was, of course, a time when the Prime Minister and the 
President had agreed to deal with this problem secretly, 
confidentially, and quietly in order to make it easier for the 
Soviet Union/Russia to comply and get rid of the weapons and 
move on, rather than pillorying them on the world stage.
    Eventually, that mismatch in reality, led to the Russians 
asking for access to U.S. facilities, both commercial and 
military, that they knew would be denied, leaving them to 
maintain that it was in fact the U.S. and the U.K. that were 
hiding BW R&D, not them. The result, the perfect impasse.
    So despite this failure of the ``trilateral process,'' 
created in late September 1992 in Moscow and the fact that the 
United States and United Kingdom were certain enough that the 
offensive biological weapons program was continuing that they 
challenged the new Russian regime openly about it as late as 
1993, most observers in the world at large assumed that the 
problem had been solved. The myth that Russia had owned up, 
explained and destroyed its weapons and opened up its 
biological weapons establishments grew. And so it was that with 
improving relations between East and West, the legitimate and 
very real concern over ``loose nukes'' and a fundamental lack 
of understanding of biological weapons by just about everyone 
involved in decisionmaking, ``the elephant'' took up residence 
in the room, and as time passed, it became ever more difficult 
to mention the name of ``the elephant,'' let alone suggest that 
it be dealt with; for what good does it do a person or a 
government to raise an issue that most, if not everyone, 
regards as dead and buried, especially if international 
relations seem to be improving; why rock the boat? So ``the 
elephant'' has remained in the room for 18 years, but just 
because we choose not see him does not mean he is no longer 
there.
    So if we assume, as I suggest to you, that Russia did not 
admit to the real size and capability of its biological weapons 
systems and it did not get rid of all of them and did not allow 
the U.S. or the U.K. free unfettered access to its web of 
military as well as civilian BW sites, because those are the 
ones that have been mentioned today, and that Mr. Putin, like 
all his antecedents, would never give up such a key strategic 
military and diplomatic card, it is not unreasonable for a 
concerned citizen to ask you to examine following questions: 
When many of the Biopreparat sites were abandoned or 
downgraded, what happened to the biological material being 
worked on at those places? What happened to the experimental 
results from the Biopreparat institutes? What happened to the 
policies and tactical and strategic plans for the use of the 
many types of weapons that were developed? What has been 
happening at the Russian Ministry of Defense military 
biological weapons sites in the past 18 years? What happened to 
the weapon strains of the various BW agents? What happened to 
military launch vehicles? What happened to plans dealing with 
every aspect of production and deployment? What happened to the 
bioregulator program? What happened to the R&D centered on 
anticrop, antiplant, and antilivestock biological weapons? What 
happened to the stocks of seed cultures of biological weapons 
agents designed to be used to fuel a mobilized production of 
weapons? And there are a number of other questions.
    Finally, biological weapons are not weapons of mass 
destruction. It is an epithet coined, you many not be surprised 
to hear, by the Soviets back in the 1960s, no doubt to obscure 
future discussion and negotiation by lumping them in the basket 
with nuclear weapons at a time when their possession was still 
legal. In fact, they comprise a complete suite of possibilities 
for killing or injuring or disabling humans, animals, plants as 
a means to achieve politically sanctioned ends, just as the 
panoply of conventional weapons can within a purely ballistic 
context. However, they are distinguished in at least one 
particular respect from true weapons of mass destruction on one 
hand and conventional weapons on the other; they can be used 
for strategic purposes without damaging materiel 
infrastructure.
    Therefore, with Mr. Putin in power in Russia, it would be 
as well for the United States to stop ignoring ``the elephant'' 
and address these unanswered questions. There is now nothing to 
be lost and everything to be gained by doing so. Thank you for 
your listening.
    Mr. Rohrabacher. A little bit longer than 5 minutes.
    Dr. Davis. I am sorry. I didn't have a watch.
    Mr. Rohrabacher. Well, it was London time. That was it.
    Dr. Davis. I am jet lagged.
    [The prepared statement of Dr. Davis follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                              ----------                              

    Mr. Rohrabacher. And finally, we have Mr. Leitenberg with 
us and our last witness.
    Now, there will be some votes coming up, so we want to get 
moving as fast as we can, but Mr. Leitenberg, you may proceed 
with your testimony.

 STATEMENT OF MR. MILTON LEITENBERG, SENIOR RESEARCH SCHOLAR, 
  CENTER FOR INTERNATIONAL AND SECURITY STUDIES AT MARYLAND, 
        SCHOOL OF PUBLIC POLICY, UNIVERSITY OF MARYLAND

    Mr. Leitenberg. Thank you very much, and thank you, 
Congressman Rohrabacher and Congressman Keating.
    Mr. Rohrabacher. Make sure you talk real close to that 
mike.
    Mr. Leitenberg. I am sorry, I had not pushed the green 
button. Thank you for having me to testify.
    I will try and be a little briefer. I think a large part of 
Christopher's elephant is in there or as much as we could pack 
into 900 pages, so I think a substantial number of the 
questions that he asked are in fact answerable, and perhaps I 
will find a moment to do that.
    I submitted a statement, which is simply a precis of the 
book but I will try and make my remarks a bit broader and speak 
about three things: A little bit about the Soviet program and 
what is left of it because an important part of the book 
concerned the U.S. and the British Government efforts to get 
President Yeltsin--President Gorbachev, first--General 
Secretary Gorbachev, President Gorbachev, then President 
Yeltsin to put an end to that program, and we failed, both the 
U.S. and the British Governments failed in that, and that is 
gone into. There is 150 pages in the book describing that, and 
in substantial detail.
    So I will say a little bit about the Soviets and the 
Russians, and then I want to say something about the biological 
threat currently to the United States from state and nonstate 
actors, since that has been mentioned by both of the 
introductory remarks. Finally, I want to say something about 
the Biological Weapons Convention and verification and 
compliance
    Quickly to the remnants of the Soviet BW program existing 
in Russia today. There are three reasons to be concerned about 
what is in Russia. The first of which was referred to, is that 
the Russian foreign ministry and Ministry of Defense took part 
in negotiations, but it was essentially the Ministry of Defense 
that destroyed what was called the ``Trilateral Negotiations'' 
between 1993 and 1996, and it was not accepted by either our 
Government or the British Government. Secretary Christopher was 
going to Moscow, other senior U.S. officials, then Lynn Davis 
was going to Moscow. We kept on. I quote President Clinton's 
letter to President Yeltsin in 1995, we were pressing--and the 
Gore-Chernomyrdin Commission took this up. We were pressing 
this issue, but the Russians ran the negotiations into the 
ground. I haven't time to deal with it, but they did. It was 
not our undoing. It was theirs.
    Second, as a corollary of that, which was also mentioned, 
the three Ministry of Defense facilities have never been 
visited by anybody from any other country to this day. They are 
closed. We don't know what they are doing. They may or may not 
have an active offensive program. I presume they do. I do not 
believe that the U.S. Government thinks they are producing and 
stockpiling agents anymore, but we don't know that.
    The third thing is President Putin. There was a very 
surprising occurrence in February and March 2012, and I will 
read this: ``In a somewhat bizarre development in February/
March 2012, Putin and then Russian Minister of Defense Anatoly 
Serdyukov publicly referred to 28 tasks that Putin had 
established for the Russian Ministry of Defense in order to 
prepare for threats for the future.'' Putin wrote that Russia 
needed to be prepared for ``quick and effective response to new 
challenges,'' and one of the tasks that Putin specified was 
``the development of weapons based on new physical principles, 
radiation, geophysical, wave, genetic, and psychophysical, et 
cetera.'' Genetic can only mean one thing. That would be a 
violation of the Biological Weapons Convention. The others 
happen to be a violation of one of Brezhnev's favorite arms 
control treaties that the Russians fought for 
4<greek-l>for deg. years called the ``Hostile Use of 
Environmental Modification Technologies,'' signed May 18th, 
1977, and entered into force on October 5th, 1978.
    So all of the things that Putin rattled off would be in 
violation of either the Biological Weapons Convention or what 
is called the ENMOD Treaty.
    Two or three short other points, because they were raised 
in various remarks and questions. We do not believe that any 
agents or weapons from the Soviet program went out of the 
Soviet Union or Russia to either other states or nonstate 
actors. There is one possible exception to this, but I don't 
think you are really asking about that. If you go back to the 
Reagan administration and the ``Yellow-Rain'' accusations that 
the Soviet Union had transferred what were called mycotoxins, 
trichothecene mycotoxins, to Vietnam to use against Hmong and 
Meo tribesmen, which had fought for the U.S. This is after 
1975, between 1976 and 1982. That has never been resolved. The 
U.S. Department of State to this day maintains those claims. 
Canada, Great Britain, Sweden, and Australia did their own 
chemical analyses and could not verify the U.S. claims, and 
most of the arms control community does not believe those 
allegations, but except for that story, if you segregate that 
out, we do not believe that any agents went out of the Soviet 
program anywheres.
    Secondly, because it is in Amy's testimony, she actually 
has a better summary of the Soviet program than I wrote, she 
refers to genetic engineering. The entire post-1972 Soviet BW 
program was to adapt molecular genetics to do what the 
classical early program from 1945 to 1972 had not succeeded in 
doing: To insert antibiotic resistance, and to change the 
antigenic structure on the organism so that you fool vaccines 
and things like that.
    Their development program succeeded in that, but that 
happened between 1984, 1985, and 1990. Pasechnik--Vladimir 
Pasechnik came out in October 1989. By April/May 1990, the U.S. 
Government and the British Government were beating on Mr. 
Gorbachev's head to put an end to this, and so those new agents 
were never produced and stockpiled. The Soviet stockpile was 
the classical old nongenetically modified agents.
    All right. The current biological weapons threat to the 
United States by state and nonstate actors. There are very few 
state BW programs. We have changed our notion from the 1970s, 
1980s, that there were perhaps 10, 11, 12. In 2006, 2007, our 
Noncompliance statements drastically changed. We reduced that 
to five or six countries, and the phraseology about those five 
or six countries, even the ones that we still were worried 
about. There is Russia, question mark; there is China, also 
question mark; North Korea, probably; Iran, possibly; Israel, 
yes, but we don't know what is left of it. You have five. We 
don't know anything about stockpiles in these countries. We 
assume they have offensive programs, perhaps, but our 
compliance statements uses phraseology about capabilities in 
industrial infrastructure, pharmaceutical infrastructure, 
scientific capability. That would apply to all our NATO allies, 
all EU countries, and to the United States more than anyone 
else. So those are not criteria for an offensive BW program. So 
it is a big question mark.
    Nonstate actor programs or terrorists, there is no evidence 
that any state has ever given a nonstate actor biological 
weapons. As for the famous programs that were tried by the two 
major groups: First, the Aum Shinrikyo between 1990 and 1994. 
They never obtained a pathogen, an active pathogen to work 
with. They had a strain that is used for vaccination of 
animals, a vaccine strain. You can't make a weapon out of that. 
It obviously doesn't work. So they didn't have anything of any 
kind to work with, and what little work they did was 
incompetent.
    The Al Qaeda program between 1997 to December 2001, and I 
am the person that got the papers declassified, the papers we 
found in Afghanistan, they, too, never obtained a pathogen to 
work with. There were two or three incompetent people that they 
trusted that they thought would do the laboratory work. They 
never got to their A, B, Cs. Neither of these two groups got to 
the first essentials of doing anything.
    All right. Now, let's say something about compliance, and I 
want to use----
    Mr. Rohrabacher. If you could summarize, please, because we 
are----
    Mr. Leitenberg. Well, I will be as quick as I can.
    Mr. Rohrabacher. We are going to vote pretty soon.
    Mr. Leitenberg. Dave Franz has as his second point, and I 
think it is quite important, ``Verifying that any individual 
nation state is in compliance with the BWC is not possible.'' 
That is true as an absolute, but it is not true in the real 
world. When UNSCOM, which Dave participated in, went to Iraq 
and there were teams of 10, 15 people, and there were disputes 
amongst them whether a particular Iraqi facility was an 
offensive one or a defensive one. There were such disputes, 
though Amy's description of the early UNSCOM missions is very 
good.
    Nevertheless, they have also participated in trilateral 
inspections in Russia which began in August 1991 and lasted 
through 1995. I should be corrected if I am mistaken, but to my 
understanding, unanimously, all the members of the U.S. and 
British teams that went to those sites decided that they were 
looking at elements and infrastructure of an offensive BW 
program. As best I know, nobody disagreed with that.
    Therefore, you don't know things absolutely, but if we had 
such people as went into the former Soviet Union in Russia from 
1991 to 1995 walking around the Russian Ministry of Defense 
facilities now, and if we had them walking around facilities in 
Iran, we would have a very much better idea of what was taking 
place in those places and whether they had an offensive BW 
program or not. I can add to this, but your red light is on.
    Mr. Rohrabacher. Thank you very much. We do have time 
constraints here.
    [The prepared statement of Mr. Leitenberg follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                              ----------                              

    Mr. Leitenberg. I would like to say something about the 
verification protocol if you can have that later.
    Mr. Rohrabacher. I will yield to my colleague for his 
questions first, but go, go right ahead.
    Mr. Keating. Thank you, Mr. Chairman.
    You covered a lot of the ground in terms of the questions I 
had with the remarks, but I want to--part of it could be 
consensus, too. Let me hit a couple of issues.
    One, in terms of the more fundamental attacks and the types 
of biological weapons that could be put into place at a more 
fundamental basis. One of my concerns is, since this group's 
publications like Inspire that are providing basic information, 
how to assemble a bomb, how to do this at home, are there 
biological weapons, more simplistic ones that can be 
manufactured more easily, and therefore, can some of that 
information be communicated over the internet by groups to 
disseminate it, how to formulate that now? And so if anyone 
wants to take a shot at that, I will allow them to.
    Dr. Franz, thank you, and thank you for your service to our 
country.
    Mr. Franz. I think that it is clear that--first, anything 
is possible, and as I said, I think proliferation of 
capabilities and technologies and knowledge is over.
    However, I think about tacit knowledge. Having spent a lot 
of time with some of our old bioweaponeers, it is a little bit 
like our mothers making biscuits without a recipe. There is 
more than just following a cookbook, and as Milton stated, 
those sub-state actors who have tried it have not really been 
very successful and not even been close.
    So I think that starting--I am probably concerned more 
about an insider scientist than I am about a terrorist becoming 
a scientist. I am also concerned about a terrorist organization 
recruiting scientists, which is certainly possible, but I think 
it is important to note that the--there is a big difference 
between what the Soviet Union was doing and what we were doing 
in our old offensive program, and what is possible, and it 
might even just be disruption, as you saw with the anthrax 
letters that we had here on the Hill in 2001. It was terribly 
disruptive, terribly expensive, and yet it was--it was gram 
quantities.
    So, it is--in a sense, you can say anything is possible, 
but it is--I have spent my life trying to do good things with 
biology. It is also hard to do bad things with biology, to some 
degree.
    Mr. Keating. Dr. Smithson.
    Ms. Smithson. One of the things that frustrates me is when 
I see someone go on TV, usually someone with scientific 
credentials, who says I can do this. Yes, perhaps they could, 
but each of these agents actually has different characteristics 
both in the fermenter and to disperse. So while you may be able 
to read things, in fact, can read things on the Web about 
fermentation of various biological agents, and there is 
information out there about dispersal, knowing what to use with 
which agent is going to be a considerable problem for any 
individual or group trying to master this.
    And Dave is exactly right about the tacit knowledge that 
goes into this equation. Inspire does indeed have some 
articles, as does the encyclopedia of Jihad, and there have 
been analyses done of a variety of cookbooks that individuals 
have published, and in almost each and every case, you will 
find that there are technical problems to what they recommend.
    The issue is that equipment is being deskilled. In other 
words, as more sophisticated equipment disperses around the 
world, and this has considerable benefit on the good side of 
science, but it will also make it perhaps easier for those with 
malevolent intent to do something bad with a pathogen, and that 
is because they won't have to have as much of this tacit 
knowledge, the machine will do it for them. So we have got a 
point in the future where our problem will become more 
challenging, but right now, it is one where I think his 
description of an insider threat versus a terrorist that hasn't 
scientific knowledge is very accurate.
    Mr. Keating. It is more of a threat of obtaining it rather 
than creating it.
    Now, I think Mr. Leitenberg was going in this direction, 
and I want to ask him this question and all of you this 
question because----
    Mr. Leitenberg. I would like chip in on these--on this, 
too.
    Mr. Keating. You can--let me get the question out. You can 
jump in and--please. But the--it is the issue of verification. 
Some of you have addressed that in your statements, but I want 
to get a sense here. Some of you say really it can't be 
verified. There are different scales of how much can be 
verified. I just want to quickly, our panel to discuss how well 
can we verify some of this, because if we can't or if it is 
near impossible, then that is good to know as a starting point 
because if we are going into the 2016 review conference and--it 
would be good to know because that will be discussed, I am 
sure, there, but if it is a discussion that is going nowhere, I 
would like your opinions on that. Verification, how well can we 
do it?
    Mr. Leitenberg. Can I first say something about the 
previous discussion? I want to make three short points to my 
colleagues.
    Mr. Rohrabacher. Answer that one and then go right into 
your points.
    Mr. Leitenberg. Okay. This is----
    Mr. Franz. Let me respond to Milton's comment about my 
comments. I stand by my statement that we--that it is 
impossible to verify compliance. I can't assure you that any 
country is not doing anything contravening the Biological 
Weapons Convention, and I stand by that.
    He talked about my time in Iraq and my time in Russia. In 
Iraq, the problem was trying to figure out if it was an 
offensive program or if it was a legitimate program. It was 
this dual use issue that was really hard, and they were pretty 
good at hiding things, so we had to sort through that, and 
eventually, we learned from people--and Amy knows this story 
better than I do, even though I was there--from people with 
regard to what they were doing.
    In Russia, there was no question that in my eyes that we 
were--when I walked into Obolensk, this was an offensive 
program. I had lived and was running a vaccine development 
facility here in this country, a biodefense facility, and it 
was nothing like that. So I had no question that that was an 
offensive program, but I can't verify either that it is ongoing 
or that had stopped. That is a--that is the issue with regard 
to verification. It is not that you can't walk into a country 
or a facility and have some sense, but verifying compliance, I 
believe, is not possible.
    Mr. Keating. All right. Thank you. Appreciate that.
    Mr. Leitenberg, would you like to follow up on that?
    Mr. Leitenberg. Well, I think we should probably stick with 
the verification for the moment then, and I will try and come 
back if I can to the earlier question.
    How well can we verify? Much better. One can never know 
more by not having on-site inspection than by having it. In 
other words, you are not going to learn more by not getting in 
the front door than you will if you got in the front door. I 
mean, that is--there is no way in the world that I can 
understand that any differently.
    Mr. Rohrabacher. That makes sense, yes.
    Mr. Leitenberg. Now, in publications going back to 1996, I 
have used a five-page list of criteria that were developed at 
after AFMIC, the Armed Forces Medical Intelligence Command, if 
I remember. In other words, our BW intelligence community had 
drawn up under five different categories, if you walked into a 
site or if you looked at the site and then inside and how it 
was managed and how its economics were run, they had five sets 
of criteria with six or seven points under each one that would 
help you distinguish between a facility that was doing 
offensive BW work and a facility that was doing none, that was 
doing defensive BW work.
    Again, I agree with Dave, nothing is absolute, but you--you 
get closer and closer, you hone in. I also, since 1970, have 
written a successive group of studies, and there is a chapter 
in the book which I repeated again in terms of the Soviet 
program specifically, can you tell the difference in the 
laboratory--in laboratory, not in a production facility but at 
the level of the science in the laboratory, can you tell the 
difference between work that is offensive and work that is 
defensive? It is an extremely intricate question, but I think 
you can or you can get a good way toward it. Now, you asked 
about----
    Mr. Keating. Real quick, if I could. I got the thrust of my 
question answered. That being that, forensically, you can go 
back and determine that in terms of verification. It is just 
not something that could be done, but if I could, just because 
I don't want to--we do--we are up against the rollcall, I would 
like to yield back to the chair, and you could follow up in his 
questioning some of that. I want to make sure the chair has the 
chance.
    Mr. Rohrabacher. What are the positive--why would someone 
want to develop these things for positive reasons? I mean, is 
it--keep getting this word ``positive'' in there. Is there a 
development of a chemical biological agent for something other 
than hurting somebody and killing people? We have just tried to 
create a dichotomy here between different substances. It would 
seem to me that we are talking about a human endeavor that is 
in and of itself evil.
    Ms. Smithson. Pathogens are studied by legitimate 
scientists in order to find cures for diseases, to develop 
antivirals, and antibiotics, and so it is this thin area of 
what is--what is a good medical use, and where has this 
knowledge been distorted and used for military purposes?
    Mr. Rohrabacher. Correct me if I am wrong, but that would 
be a very limited, very small operation as compared to 
something where you are trying to create a weapons system.
    Ms. Smithson. And that is the scale that Dr. Franz referred 
to.
    Mr. Rohrabacher. That is miniscule compared to major 
production.
    Ms. Smithson. I have been upstairs in Obolensk as well, and 
it hit me across the face that this was no legitimate 
pharmaceutical activity because of the scale of the high 
containment area there. So, indeed, in some cases, you can tell 
right away, not just by the physical infrastructure, but there 
are likely to be questions that you want to ask that are hard 
questions about, what are you doing here that is different from 
what you say you are doing here? And that is the crux of the 
verification methodology that the industry experts put forward 
in their monitoring proposal for the BWC, and they describe 
which areas of a facility that you would go to in order to get 
the best information and how you can monitor things just by 
looking at the documentation.
    And in Iraq, there were many things that they found just in 
the documentation that were both incriminating in some cases, 
and on other facilities, it was very clear that they were 
engaged in legitimate activity, whether it was baking bread, 
making beer or, indeed, making medicines. So you can tell the 
difference.
    Mr. Rohrabacher. Mr. Leitenberg's point that there is 
certainly no way that you are going to learn less by having 
someone go into one of those situations. But it seems to me 
that, well, when people did go into this in Iraq, did you find 
that people working on these positive type of chemical 
biological projects, or was this all the total----
    Mr. Franz. No, we didn't at Al Hakum or Al Manal or at 
other places, but we did at Samarra drug industries, for 
example. We looked at a lot of places. There were just a 
handful that were used as negative.
    Mr. Rohrabacher. Used as what?
    Mr. Franz. Uses for the weapons program, I am sorry.
    Mr. Rohrabacher. And the rest of them were used for?
    Mr. Franz. And many of these were used for their 
biopharmaceutical industry, food industry; it was very common.
    Mr. Rohrabacher. There are go. I learned something.
    Mr. Leitenberg. Different sites, different sites.
    Mr. Rohrabacher. Right. Different sites. Let me ask you 
this about--a vote has been called, and the chair plans to try 
to finish the questions up in the next 5 minutes, and we will 
have to call an end to the hearing. Let me go real quickly.
    The Nunn-Lugar, the effect of Nunn-Lugar, some indicated to 
me that Nunn-Lugar had a major impact of reducing the 
stockpiles of chemical-biological weapons in the former Soviet 
Union, but what happened is that the actual weapons were 
systems that were upgraded. And we were actually paying for 
upgrading the weapons systems there.
    Mr. Leitenberg. The Nunn-Lugar program has done much to get 
rid of the Soviet chemical weapons stockpile. It did nothing to 
get rid of the Soviet biological weapons stockpile, because we 
and the British believed that they got rid of the stockpile 
between late 1989 and perhaps mid-1991 by themselves. Part of 
that stockpile we then redug up twice, because it was buried on 
this Vozrozhdeniya Island. It was anthrax, and it wasn't 
decontaminated very well. We didn't want anybody to get it, so 
we dug it up twice and re-decontaminated--so, yes, that was 
probably paid for by Nunn-Lugar. But in other words, the 
Russians got rid of their stocks initially by themselves.
    Now the answer to Chris' questions, where are those 
cultures? Where are all the protocols? They are unquestionably 
sitting in the Ministry of Defense, the Russian Ministry of 
Defense in the old 15th Directorate that was simply renamed. It 
now has to do with biodefense; all they did was change the 
title. In the early years, they kept all the same people. And 
they are no doubt sitting there.
    Well, we saved our cultures in our own type culture 
collections. We saved 6,000 classified documents. We had a big 
team sitting at Fort Detrick in USAMRIID for 2\1/2\ years I 
think it was looking at 16,000--17,000 documents deciding which 
would be sequestered and kept and which would be released to 
the public.
    There is no question that the Russians kept their 
documentation and their protocols. We don't think they 
destroyed that.
    Mr. Rohrabacher. Do you think--again, we are hearing about 
a dichotomy about the type of offensive system versus a 
nonoffensive system of earlier weapons. How can you make that 
distinction? I am trying to figure that out?
    Dr. Davis. Mr. Chairman, a confusion has occurred I think 
in semantics here. We are only talking about weapons. We are 
not talking about good weapons, bad weapons. We are talking 
about weapons. And somewhere along the line, we used the terms 
positive and negative. The positive thing was about the use of 
biological agents for illness in treatment, et cetera, et 
cetera. Antibiotics or those kinds of things. Molecular 
biology. That is one side. That is the plus biology side. The 
negative biology side is what you do to make weapons.
    I would just say, adding quickly here, following the 
comments that have been made. When you look at verification, 
you look at biological weapons, you are not talking about a 
single process, if you like. The process of production has 
changed enormously. I was the first man into Obolensk in 
January 1991, and it was a massive facility. I was the guy 
inside the explosive chamber with the incident and all the rest 
of it, and we had a bag full of intelligence to go in with. We 
knew exactly the background, et cetera.
    Today, if you look at what is happening in the biotech 
industry, you can do what you did with something the size of 
this room with something much, much smaller. And that is where 
so many things on the production side have gone. The signature 
of what looks bad; what could be done with a small amount of 
materiel.
    The second thing is the other side of weapons is that, you 
know, it is no good simply having 5 liters of materiel. You 
actually have to disseminate that materiel in an effective 
fashion. That is where technique, technology and understanding 
occurs, and how to make biological agents into weapons.
    Mr. Rohrabacher. The point has been made earlier about the 
difference between a site that is involved with inventing and 
developing a system versus a site that would be producing 
enough for a utilization as a weapon.
    Just one last point here then. Apparently, it looks like 
the United States went into this sincerely with an idea of 
trying to bring down the level of the threat of use of some 
sort of chemical biological agent on human beings. And that 
threat that posed all of human kind. And we stopped our 
production; the Soviets did not. But they became Russia. I take 
from the testimony that Russia is still producing chemical 
biological weapons.
    Mr. Leitenberg. No, no, absolutely not.
    Mr. Rohrabacher. They just didn't destroy what they had?
    Mr. Leitenberg. We keep talking about an offensive and 
defensive program. First of all, there is no such thing as a 
defensive biological weapon. A defensive biological program 
means you make vaccines. You make pharmaceuticals, which is a 
chemical, rather than a vaccine. You make masks. You make 
suits. You make particular kinds of clothing. That is all 
defensive. That is legitimate under the convention. You can do 
that.
    There is no such thing as a defensive biological weapon.
    I forget what the other part of the question was at the 
very end.
    Mr. Rohrabacher. I am going to give each of you 30 seconds 
to summarize, then we have to go vote.
    Mr. Keating. The $64 billion, is that well spent?
    Mr. Rohrabacher. You got 30 seconds to tell me whether or 
not you think this program has been a plus, minus, or what. You 
have 30 seconds each because then we have to go vote. I am 
sorry.
    Ms. Smithson. The Cooperative Threat Reduction Program has 
been a tremendous plus for U.S. And international security, not 
only because they dismantled actual weapons systems, nuclear 
and chemical weapons at Shchuchye, but because we went in with 
grant assistance for the former Soviet chemical biological and 
nuclear weapons at a point at which they were under or 
unemployed and we kept them gainfully employed so they would 
not----
    Mr. Rohrabacher. Good point.
    Yes, sir?
    Mr. Franz. I have been actively involved in the Nunn-Lugar 
program since the beginning, and I am, as you can tell from my 
testimony, I am a real supporter of the people-to-people 
engagement. And I have close friends in Russia. I have close 
friends around the world, some of whom have worked in weapons 
programs in the past who no longer work in weapons programs.
    And I believe because it is very difficult--I think it is a 
lot different to send in an inspector to prove or disprove if 
that there is a weapons program in an organization or in a 
country than it is to make friends in that country and learn to 
know them well and even build trust.
    Mr. Rohrabacher. The program is a success, but the 
friendship is even better.
    Yes, sir, Mr. Davis? Dr. Davis.
    Dr. Davis. And I used to contract under CTR with Russia for 
a number of years. People on the ground that did the work, I 
thought it was an excellent program. I will make my final 
remark: ``The elephant is still in the room.''
    Mr. Rohrabacher. Okay.
    Mr. Leitenberg. Three answers to your question: Russia is 
not producing chemical weapons, at least we don't think so. 
Under the OPCW, both the United States and Russia have now for 
20 years been destroying their existing chemical weapons 
stocks. We are each down to the last--we are down to our last 7 
or 10 percent. The Russians are about down to their last 15 or 
20 percent. That is chemical weapons.
    Biological weapons, to the best of my knowledge, the U.S. 
Government doesn't believe the Soviet Union is producing 
biological weapons. We are suspicious that they may be 
maintaining an offensive program in those three Ministry of 
Defense facilities, but we have no way to know.
    Mr. Rohrabacher. And we should demand to see those 
facilities?
    Mr. Leitenberg. Excuse me?
    Mr. Rohrabacher. We should demand to see those facilities.
    Mr. Leitenberg. Oh, absolutely.
    Mr. Rohrabacher. There you go. Thank you all for testifying 
today. There will be a lot of people looking at what you have 
said, and this will spur a lot of conservation and talk on this 
issue, which was the purpose of this hearing.
    This hearing is now adjourned.
    [Whereupon, at 3:30 p.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


                    Material Submitted for the Record

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



  Material submitted for the record by Mr. Milton Leitenberg, senior 
  research scholar, Center for International and Security Studies at 
       Maryland, School of Public Policy, University of Maryland


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



[Note: The remaining pages are not reprinted here but are available in 
committee records.]
                               __________


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                               

[Note: The remaining pages are not reprinted here but are available in 
committee records. This publication may also be accessed on the 
Internet at the following URL: 
http://www.strategicstudiesinstitute.army.mil/pubs/download.cfm?q=639]
                               __________


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                               

[Note: The remaining pages are not reprinted here but are available in 
committee records.]
                               __________


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                               
[Note: The remaining pages are not reprinted here but are available in 
committee records.]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



 Responses from Mr. Milton Leitenberg, senior research scholar, Center 
 for International and Security Studies at Maryland, School of Public 
 Policy, University of Maryland, to questions submitted for the record 
by the Honorable George Holding, a Representative in Congress from the 
                        State of North Carolina


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                 [all]

</pre></body></html>
